APPENDIX A

United States Court of Appeals
for the Federal Circuit
IN RE: STEVE MORSA,
Appellant

2019-1757

Appellant’s Combined Petition for Panel Rehearing
and Rehearing En Banc

Introduction
For each and all of the 10 meritorious reasons of
exceptional importance which follow, I respectfully
request a panel rehearing and rehearing en banc of the
April 10th,. 2020 In re Steve Morsa decision (“Decision”).
Reference is made to my Opening Appeal Brief (“OB”)
and Reply Brief (“RB”).

App. 1

Table of Contents

I. Solicitor New Arguments & Rationales Silence

Page
3

II. Patent Office Rules & Regulations Breaking Silence 4
III. Overlooked Supreme Court Cuno Eligibility Proof. 4
IV. Misunderstood 1,000’s of Ad Patents /
No Undue Preemption.................................

6

V. Overlooked Lack of Patent Office Prima Facie Case 7
VI. Contravened Alice Framework &
Improper New Section 101 Law ....

7

VII. Novelty and Non-Obviousness
Confirms Claims Eligibility...........

12

VIII. No Representative or Illustrative Claims

14

IX. Overlooked Integral Technological Elements
Confirm Claims Eligibility......................................

15

X. Overlooked Computer Function Improvements
Confirm Eligibility....................................................

17

CONCLUSION

17

CERTIFICATE OF COMPLIANCE
CERTIFICATE OF SERVICE
ADDENDUM
App. 2

Argument
I. Even though this Court and the Supreme Court have
both repeatedly made it clear that the Solicitor must not
engage in such, the Decision is silent about the Solicitor
improperly raising new arguments and rationales for the
first time on appeal. Specifically: 1. Improper new no
double patenting doesn’t matter argument (RB #8, p.5 6); 2. Improper new 1,000’s of ad patents don’t matter
argument (RB 9, p.6); 3. Improper new Cuno / flash of
creative genius doesn’t matter argument (RB #14, p.8); 4.
Improper new Berkheimer doesn’t matter rationale (RB
#17, p.9).
The Solicitor cannot cure the plethora of Board and
Examinational infirmities; as the Supreme Court has
made clear that a “court may not accept appellate
counsel’s post hoc rationalizations for agency action.”
Burlington Truck Lines v. U.S., 371 U.S. 156, 168*69
(1962). Further, “it is well settled that, on appeal to this
court, the Solicitor cannot raise a new ground of rejection
or apply a new rationale to support the rejection affirmed
by the board.” In re Strahilevitz, 668 F.2d 1229, 1234 n.7
(CCPA 1982); see also In re De Blauwe, 736 F.2d 699, 705
n.7 (Fed. Cir. 1984) (“It is true that the Solicitor cannot
raise a new ground of rejection or apply a new rationale to
support a rejection in appeals from decisions of the
board.”).
See also In re Imes, 778 F.3d 1253 (Fed. Cir. 2015) (“This
rationale was not articulated by the examiner or the
Board, and we will not consider it for the first time on
appeal.”) (OB p.7)
II. Even though this Court and the Supreme Court have
both repeatedly made it clear that the Patent Office must
not engage in such, the Decision is silent about the Patent
Office breaking their rules and regulations.
App. 3

Specifically: i. Broken 37 CFR 41.39, MPEP 1207.07(A)(2)
and APA 5 U.S.C. § 554 (OB p.7 - 10); 2. Ignored
arguments (OB p.10 — 11); 3. Undesignated new rejection
(OB p.11-12).
Further, by not correcting these infirmities, the Decision
gives a dangerous, unconstitutional green light to all
government agencies to pick and choose which of their
rules and regulations to follow and which ones to break.
III. The Decision did not cite, apply, or address the
Supreme Court’s seminal Cuno decision proof that the
claims at issue - because the Match Engine Marketing
invention was the result of a flash of creative genius - are
patent eligible:
“That is to say, the new device, however useful it
may be, must reveal the flash of creative genius,
not merely the skill of the calling.” (Cuno
Engineering Corp. v. Automatic Devices Corp.,
314 U.S. 84, 91 (1941))
As I explained (OB p.54 - 55), while Congress removed
via the 1952 Patent Act the requirement that an
invention be the result of a flash of creative genius in
order to be eligible for patenting, neither Congress nor the
Supreme Court - including in their non-conflicting Alice
and Mayo decisions — have ever abrogated, overruled, or
otherwise eliminated this eligibility basis. See, e.g.,
Kimble v. Marvel LLC, 135 S. Ct. 2401 (2015); which says
that precedent remains until Congress overturns it.
Shalala v. Ill. Council on Long Term Care, 529 U.S. 1, 18
(2000) that reversal should be explicit to be effective.
Because Congress has not explicitly reversed Cuno, but
rather only partially offset it, Cuno remains good law as
to claims that do not take advantage of the part of the
statute meant to address Cuno.
App. 4

Accordingly, the claims of inventions which are, like here,
the result of a flash of creative genius are, under Cuno,
patent eligible. This is eligibility dispositive. The
eligibility analysis should have ended there.
Further! given the obvious importance and value of this
Cuno eligibility basis to all stakeholders including the
District Courts as well as the Federal Circuit, it cries out
for an explicit, on-the-record, en banc eligibility basis
confirmation ruling by the Court.
IV. Respectfully, the Panel apparently misunderstood my
no undue preemption argument (Decision footnote #4, p.6
-7). In stark contrast to my allegedly asserting that the
claims “do not preempt all advertising(something I’ve
never said or argued); I instead rely on the Patent Office’s
1.000’s of issued advertising patents to objectively and
factually prove that mine preempt just that minimal
amount of advertising permitted under Alice, Mayo, and
35 U.S.C. §101. And nothing more. US. Constitution
Article. I, § 8, Cl. 8. (OB p.39 - 43)
“We have described the concern that drives this
exclusionary principle as one of pre-emption.”
Alice, 134 S. Ct. at 2354
Accordingly, the relied upon Ariosa Diagnostics, Inc.,
(where such Patent Office eligibility proof - if it even
existed" was not provided) - along with any and all,
“absence of complete preemption does not demonstrate
patent eligibility” progeny and brethren Court, PTO
examination, and PTAB decisions
are all easily
distinguished from the instant invention and its PTOproven -eligible claims.
The Supreme Court and the Federal Circuit both use
preemption as the mechanism to evaluate whether a
claim is eligible or not. See also, e.g, Mayo 132 S. Ct. at
1294.
App. 5

And they are far from alone, as over 100 District Court
decisions since Alice have expressly considered whether
the claims preempt, even after applying the Mayo / Alice
framework. This is eligibility dispositive for the instant
claims. The eligibility analysis should have ended there.
Further; given the obvious value and importance of this
proof-providing Patent Office records eligibility basis to
all stakeholders including the District Courts, the Federal
Circuit, and the Patent Office! it cries out for an explicit,
on-the-record, en banc eligibility basis confirmation ruling
by the Court.
V. The Decision overlooks the fact that, because the
required prima facie case of ineligibility has never been
made, the Section 101 eligibility burden has never been
mine. (OB 24 - 37)
VI. Even if, arguendo, Cuno and no undue preemption
didn’t confirm the eligibility of the instant claims! and a
proper prima facie case had been made! the Decision
contravenes the Alice framework and improperly creates
new Section 101 law (OB p.25 — 33! RB Infirmities #3, p.2
- 4! #4, p.4! #16, p.9):
First:
Though
the
Decision
correctly
initially
acknowledges that Alice requires the identification of one
abstract concept (p.6): “A patent claim is patent ineligible
when ‘(l) it is ‘directed to’ a (singular / one) patentineligible
concept
(singular
/
one)
.
.
.”
(emphasis/parenthetical provided); the Decision then
proceeds to ignore this by incorrectly affirming the
Board’s error of asserting multiple abstract ideas against
the instant claims: “The PTAB determined that
independent claim 2 is ‘directed to the concepts (improper
plural) of targeting advertisement for a user, and
(improper plural) using a bidding system to determine
how
the
advertisements
will
be displayed1”
(emphasis/parenthetical provided)
App. 6

The Decision then states the conclusory: “We disagree
with Mr. Morsa.4’ (saying that the PTAB’s multiple
abstract ideas is permissible), (p.6) (emphasis provided).
Yet, no reasoned basis for multiple abstract ideas is
provided. Why does the Panel disagree? What is the
authority? When and where has the Supreme Court ever
said multiple abstract ideas are permissible? Footnote #4
(p.6
7) is here unavailing,' as it instead concerns
preemption (addressed above at #4).
The Decision then states: “Independent claim 2 is directed
to the abstract idea and fundamental economic practice of
organizing human activities.”(p.7); which incorrectly
conflates categories of abstract ideas with actual abstract
ideas themselves. See, e.g., Alice p.10: “Although hedging
(the actual abstract idea) is a longstanding commercial
practice, id., at 599, it is a method of organizing human
activity (the abstract idea category}, . . ..” (emphasis /
parenthetical provided) Further, just what is the
“abstract idea” this statement is referring to (as well as
where else the Decision refers to the “abstract idea”) —
given that the Board alleged AZzce-non-compliant multiple
(both stated and unstated mystery) abstract concepts?
The Decision’s reliance on the multiple-abstract-ideas
RecongiCorp (p.7), is, respectfully, misplaced. Alice —
which RecongiCorp fundamentally contradicts and
conflicts with (as do any and all other cases where
multiple abstract ideas / concepts are posited / alleged) —
is the controlling, Supreme Court authority on how many
abstract ideas may be alleged (one), (emphasis supplied):
“ We hold that the claims at issue are drawn to the
abstract idea ofintermediated settlement...”
Alice at 2352
“First, we determine whether the claims at issue
are directed to one of those patent-ineligible
concepts.” Alice at 2355
App. 7

“We must first determine whether the claim ft at.
issue are directed to a patent-ineligible concept. ”
Alice at 2355
“ The claims at issue in Bilski described a method
for hedging against the financial risk ofprice
fluctuations.” Alice at 2355
“ These claims are drawn to the abstract idea
ofintermediated settlement” Alice at 2355
“It follows from our prior cases, and Bilski in
particular, that the claims at issue here are
directed to an abstract idea.” Alice at 2356
“Because the claims at issue are directed to the
abstract idea ofintermediated settlement... ’’Alice
at 2357
“First, we determine whether the claims at issue
are directed to one of those patent-ineligible
concepts.” Mayo at 1296-1297
In sharp contrast, neither the Patent Office, nor the
Solicitor, nor the Panel identifies any contrary multiple
abstract ideas / concepts quotes from the controlling Alice,
Mayo, and Bilski. Which is unsurprising, as there are
none.
Enough is enough. There’s no confusion here. No
subjectivity. No uncertainty. No gray area. No
interpretation needed. The Supreme Court said what it
means and means what it says: One abstract idea. All the
claims at issue. Not two. Not three. Not four or more.
One. One can’t be identified? Then the claims are §101
eligible. The Alice /Mayo analysis stops there. Step two is
moot. Simple as that. Courts cannot modify or supplant
the Supreme Court’s law regarding patent eligibility. See,
e.g. Rivers v. Roadway Express, Inc., 511 U.S. 298, 312
(1994):
App. 8

“[0]nce the [Supreme] Court has spoken, it is the
duty of other courts to respect that understanding
of the governing rule ofla w. ”
Accordingly Your Honors: Please keep the Supreme
Court’s one, one.
Second: Though the Decision is silent regarding this also
important infirmity, it implicitly - and incorrectly —
permits the startling and inapposite assertion of some
unknown number of unknown alleged “similar” concepts'“Similarly, while the dependent claims are each more
specific, they are drawn to the same or a similar concept
as well ...” (Board DOA p.7) (emphasis provided) (OB
p.27; RB p.4)
As with multiple alleged abstract ideas / concepts,
nowhere in Alice or Mayo does the Supreme Court say
anything about “similar” (to an alleged one single)
abstract concepts being applied against claims.
In both decisions, the Court stated one idea / concept and
stood by it. Start to finish. Beginning to end. Accordingly,
the Board’s “similar” allegations are improper. Rivers v.
Roadway Express, Inc.
Moreover, how does one even begin to traverse such
unidentified, mystery concepts? It’s impossible. As
explained in my briefs, this is a clear denial of due
process. See, e.g., Chester v. Miller, 906 F.2d 1574, 1578
(Fed. Cir. 1990):
Section 132 “is violated when a rejection is so
uninformative that it prevents the applicant from
recognizing and seeking to counter the grounds
for rejection.” (emphasis supplied) (OB p.27)

App. 9

“[t]he agency tribunal must make findings of
relevant facts, and present its reasoning in
sufficient detail that the court may conduct
meaningful review of the agency action." In re
Lee, 277 F.3d 1338, 1346 (Fed. Cir. 2002). The
Board must “set forth the findings and
explanations needed for ‘reasoned decision
making’”)
Given both of the preceding First & Second, I respectfully
request that the Court follow the framework the Supreme
Court established with their issue-controlling Alice
decision: (No more than) one stated abstract idea / concept
to which all of the claims at issue are directed to.
Respectfully, the time has come for the A/zce-bound Court
to en banc restore and insure a materially greater degree
of clarity, stability, and predictability to the Alice analysis
for both all Courts as well as the Patent Office by
confirming the Supreme Court’s one stated abstract idea /
all the claims at issue requirement.
Eligibility analyses are frustrating and confounding
enough for everyone without adding improper multiple
and mystery abstract concepts to the Alice / Mayo morass.
With this case, the Court can add clarity to this morass. It
should do so.
VII. The Decision (p. 8 & 10) asserts that the novelty and
non-obviousness of the claims don’t matter in the
eligibility analysis. Yet the Supreme Court, District
Courts, and indeed this Court itself say otherwise (OB at
50 — 5l): See, e.g., Affinity Labs, 838 F.3d at 1257-58
(“The ‘abstract idea’ step of the inquiry calls upon us to
look at the ‘focus of the claimed advance over the prior
art to determine if the claim’s ‘character as a whole’ is
directed to excluded subject matter.”);
App. 10

Internet Patents Corp. v. Active Network, Inc., 790 F.3d
1343, 1347 (Fed. Cir. 2015) (“pragmatic analysis of § 101
is facilitated by considerations analogous to those of §§
102 and 103’)', Verint Sys. Inc. v. Red Box Recorders Ltd.,
No. 14-cv-5403, page 17 (S.D.N.Y. 2016). (/Certainly, if an
invention passes a §§ 102 or 103 analysis, it should pass
Alice step two.”); Gottschalk v. Benson, 409 U.S. 63, 67
(1972) (an “application of [a] law of nature to a new and
useful end” may be inventive), (emphasis supplied)
See also, e.g., Ericsson Inc., Telefonaktiebolaget Lm
Ericsson v. TCL Comm. Technology Holdings Limited, et.
al. (Fed. Cir. 2020) (p.10 — ll); where the Honorable
Judge Newman just last month (April) explained:
“The district court had observed that a ‘pragmatic
analysis of § 101 is facilitated by considerations
analogous to those of §§ 102 and 103 as applied to
the particular case,’ quoting Internet Patents
Corp. v. Active Network, Inc., 790 F.3d 1343, 1347
(Fed. Cir. 2015).”
Given the above authorities and good old fashion logic;
the undeniable fact and truth of the matter is this: It is
impossible for a claim that is novel and non-obvious under
35 U.S.C. 102 and 35 U.S.C. 103 to lack an inventive
concept under Step 2 of the Alice/Mayo framework.
Where, as here, there is no prior art that can be brought
to bear to reject the claims in the first instance, that
means the patent claims describe an innovation that does
not directly overlap with the prior art (i.e., there is no
literal identity under 102) and no combination of
references can be found that add up to the sum total of
the claimed invention (i.e., the invention is not a trivial
rearrangement of the prior
art
under
103).
App. 11

Because the Patent Office has — correctly so — found that
none of the instant claims are either anticipated or
obvious; they are for this reason alone eligible.
VIII. Contrary to the Decision’s posit (footnote #3, p.3), for
two reasons claim 2 has never been representative of all
of the 88 instant claims. First (as explained in VI.), as a
result of the Patent Office being unable to under Alice
identify one alleged abstract concept to which all 88 of the
claims are allegedly directed to, the required prima facie
case has never been made. The eligibility burden remains
the Patent Office’s. (OB 24 — 37) No prima facie case. No
claims ineligibility.
Second, even if, arguendo, a prima facie case had been
made, the Decision is incorrect that I didn’t separately
contest the rejection of claims 3-74 and 83 - 89.1 did in
fact so contest by making it crystal clear that each and all
of my eligibility arguments applied to each and all of mv
claims (OB 20 - 21):
“The 35 U.S.C. § 101 Rejection of Claim [

] is Contested

Claim [ ] is hereby argued separately via the
incorporation by reference of each and all of the
arguments for eligibility / patentability contained in this
Brief and, if applicable, the Reply Brief.”
Is incorporation by reference no longer permitted? Should
I have unnecessarily burdened the busy, hard-working
PTO staff with more than 2,000 paper pages of identical
arguments? Why didn’t the Office simply let me know if
they wanted me to wastefully repeat all the arguments for
each of the 88 claims! as I respectfully offered to do via
the filing of an amended brief under their own Rule
41.37(d)? (OB p.20):
App. 12

“In the event that a different brief format is desired by
the Board / Examiner (e.g. by having Inventor / Appellant
repeat the entire 30+ pages of argument 80 times! once for
each of the 80 claims) in order to fulfill this separate
claim patentability election! please provide me the
opportunity! e.g. under 41.37(d)! to file an amended brief.
I have chosen the formatting in this Brief (complying with
the pro se requirements of 37 U.S.C. 41.37I(l)) in order to
maximize efficiency and minimize waste and workload for
all parties, including the Board, Examiner, and PTO staff.
I do not waive my legal right to have each and all of the
multitude of arguments for patentability considered for
each and all of the 80 pending claims for which I have
paid thousands of dollars for. Please let me know if
anything else is needed. Thank you.”
Accordingly, because to date the Patent Office has
improperly, repeatedly ignored a disturbingly all but one
of the 88 claims for which I paid 1,000’s of dollars to have
properly, completely examined, for this reason alone the
Court should remand this case so that the PTO can
properly, correctly, and on the record examine / analyze in
the first instance each and all of the instant claims under
35 U.S.C. § 101. Just as I was legally and procedurally
entitled to have done. (OB p.2l)
IX. The Decision doesn’t cite, apply, or address that the
technological elements are fundamental to the instant
claims and show that the use of a computer is not merely
an unnecessary add-on feature, resulting from clever
draftsmanship, but rather an integral element of the
claimed inventions. (OB p.54)
Indeed, note that absent its indispensable, inextricablytied-to computer(s) and the Internet / computer
network(s), Match Engine Marketing™ would not exist
and could not be practiced at all.
App. 13

See, e.g., this Court’s precedential SiRF Tech., Inc. v. Int’l
Trade Comm ‘n, 601 F.3d 1319, 1333 (Fed. Cir. 2010):
“We have defined a “machine” as “a concrete
thing, consisting ofparts, or of certain devices and
combination of devices. This includes every
mechanical device or combination of mechanical
powers and devices to perform some function and
produce a certain effect or result. ” In re Ferguson,
558 F.3d 1359, 1364 (Fed. Cir.2009) (quoting In re
Nuijten, 500 F.3d 1346, 1355 (Fed.Cir.2007))
(internal quotation marks omitted).”
“In conclusion, we hold that the claims at issue
are properly directed to patentable subject matter
as they explicitly require the use of a particular
machine (a GPS receiver) and could not be
performed without the use ofsuch a receiver. ”
Just as in SiRF Tech, the instant claims explicitly require
the use of a particular machine (computer system) and
could not be performed without the use of such a
computer system. Match Engine Marketing has never
anywhere previously existed - there is no offline / pre­
computer age analog - and neither the Decision nor the
Patent Office has ever alleged, argued, or shown
otherwise.
Computers were not invoked merely as a tool.
As the Court knows, this means that for this reason alone
the instant claims are patent eligible. Please so rule.
X. The Decision doesn’t cite, apply, or address that —
being fully supported with a specific, detailed explanation
of the nature of the improvements - the claims are (also)
eligible because they improve the functioning of the
computer itself. (OB p.56 - 57) Alice, 134 S. Ct. at 2359.
App. 14

As the Court knows, this means that for this reason alone
the instant claims are patent eligible. Please so rule.
Conclusion
Your Honors,
You hold the scales of justice in your hands.
Please don’t let the Solicitor get away with raising new
arguments and new rationales on appeal. You’ve always
held firm against this. See, e.g., Singleton v. Wulff, 428
U.S. 106, 120 (1976)):
“a federal appellate court does not consider
an issue not passed upon below.”
Please don’t let the Patent Office get away with ignored
arguments, improper rejections, and breaking their own
rules and regulations. You’ve always also held firm
against this.
Please don’t leave these two entities’ infirmities in the
shadows with the conclusory, “We have considered Mr.
Morsa’s remaining arguments
and find
them
unpersuasive.” (Decision p.10) Singleton
Please don’t short circuit due process and justice by
defending and affirming the indefensible and the infirm.
Please don’t let the Patent Office and Solicitor cost me the
1,000’s of hard-earned dollars I’ve already in good faith
paid this agency to correctly and legally treat my
application.
Please continue to be the Constitutional bulwark against
unfetteredunlawful executive power.
App. 15

I fully appreciate that I’ve identified a plethora of Patent
Office and Solicitor procedural, factual, and legal
infirmities. I wish I hadn’t had to spend more than 250
hours on research and brief writing over these past five
years defending against these infirmities. I wish there
were only one - or a few - infirmities like most cases you
adjudicate. But there’s not.
I wish the Patent Office including the Board had done
what they were supposed to do years ago. Because I know
how busy the Court is, and to save us all from
unnecessary work, I respectfully asked the Solicitor
multiple times by phone, e-mail, and in my briefs to
please not attempt to defend this problem-plagued, unripe
case.
The Court’s time - your time - is valuable. I appreciate
and respect that. As you can see from the record, I did the
best I could — the best anyone could be expected to do — to
keep this mess off the Court’s already full plate.
But despite these efforts, here we all are. The fact is that
these are important infirmities. Infirmities that matter.
Infirmities deserving to be addressed individually on the
record by the Court.
Please don’t let their large number - something I had no
control over (as you can see from the record) - deny me
the same due process and justice that we all are entitled
to whenever we deal with government agencies.
Please don’t let this agency and the Solicitor do to me
what you wouldn’t want them to do to you. As you know
far better than I, due process and justice aren’t always
easy, or quick. But aren’t they always necessary?

App. 16

I beseech Your Honors^ Please restore due process and
end this injustice by either granting my well-deserving
petition and remanding this clearly and unquestionably
unripe case to the Board / Patent Office with an order to
address this agency’s procedural, factual, and legal
infirmities, or! for one or more of the preceding reasons;
by confirming the eligibility of the instant claims.
Please rebalance and restore the scales of justice. Please
continue to do what our nation’s Courts have always done
- make right that which is wrong.
Respectfully requested this 9th day of May, 2020.
/s/ Steve Morsa
Steve Morsa
POB 1996
Thousand Oaks, CA 91358
805.495.5025
stevemor sa@cs. com

App. 17

APPENDIX B
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
IN RE: STEVE MORSA,
Appellant
2019-1757
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. 13/694,192.
Decided: April 10, 2020

STEVE MORSA, Thousand Oaks, CA, pro se.
COKE MORGAN STEWART, Office of the Solicitor,
United States Patent and Trademark Office, Alexandria,
VA, for appellee Andrei Iancu. Also represented by
KAKOLI CAPRIHAN, THOMAS W. KRAUSE, AMY J.
NELSON, FARHEENA YASMEEN RASHEED.

Before NEWMAN, DYK, and WALLACH, Circuit
Judges.
PER CURIAM.
Appellant Steve Morsa appeals the decision of the
U.S. Patent and Trademark Office’s (“USPTO”) Patent
Trial and Appeal Board (“PTAB”), which affirmed the
patent examiner’s findings that all pending claims (“the
App. 18

Proposed Claims”) of Mr. Morsa’s U.S. Patent Application
No. 13/694,192 (“the ’192 application”) (S.A. 54—128)1
were unpatentable subject matter under 35 U.S.C. § 101.2
See Ex Parte Morsa, No. 2018-004483, 2018 WL 6573274,
at *4 (P.T.A.B. Nov. 20, 2018) (Decision on Appeal) [S.A.
1—8]; see also S.A. 11—20 (Decision on Request for
Rehearing).
Mr. Morsa appeals. We have jurisdiction pursuant to 28
U.S.C. § 1295(a)(4)(A). We affirm.

BACKGROUND
Entitled “Match Engine Marketing,” the ’192
application “relates generally to the field of advertising,
and in particular to the field of matching advertisers with
entities via computer networks.” S.A. 54, 55. The ’192
application explains that embodiments of the invention
may provide “a new system of advertising where
advertisers target the most interested consumers and
entities by participating in a free market which attaches a
monetary cost for an advertiser’s listing in a match result
list generated using advertiser- selected criteria.” S.A. 63.
This advertising technique targets interested consumers
and entities based on “demographic, geographic, [and]
psychographic factorsU” S.A. 63. This advertising
technique also provides “promoters a match engine that
permits such promoters to influence a higher or lower
placement in a match result list via a continuous,
competitive online bidding process.” S.A. 63.
1 “S.A.” refers to the supplemental appendix filed
by the Appellee, the Director of the USPTO.
2 Congress did not amend § 101 when it passed the
Leahy-Smith America Invents Act. See generally Pub. L.
No. 112-29, 125 Stat. 284 (2011).
App. 19

Proposed independent claim 2 of
application is representatives and recites: .

the

’192

A technical field improving technological process
comprising:
transmitting by a computer system over a network
for display to a user a request for demographic
and/or psychographic user information!
receiving at the computer system over the network
from the user the user information!
3 The PTAB determined that independent claim 2
was representative of the claims of the ’192 application.
Morsa, 2018 WL 6573274, at *1! see Appellee’s Br. 3
(stating that independent claim 2 is representative of all
claims of the ’192 application). Where a party “does not
raise any arguments with respect to any other claim
limitation, nor does it separately argue [the] dependent
claim,” “[the] dependent claim . . . stands or falls together
with [the] independent claim.” Genentech, Inc. v. Hospira,
Inc., 946 F.3d 1333, 1340 (Fed. Cir. 2020). On appeal,
while Mr. Morsa disagrees with the PTAB’s decision to
treat independent claim 2 as representative, see
Appellant’s Br. 20- 21 (arguing that “each and all of the
[Proposed] [C]laims . . . are patentably distinct from each
other” and thus, “[t]here are no representative claims”
(emphasis omitted)), he only raises arguments pertaining
to independent claim 2, see id. At 33, 37, 49-50 (stating
that “the dependent claims add further significant
eligibility confirming features,” without discussing any
dependent claims). Because Mr. Morsa does not
separately argue any other claim, and because the PTAB
treated independent claim 2 as representative, we will
treat independent claim 2 as representative.
App. 20

saving by the
information;

computer

system

the

user

receiving at the computer system over the network
from a first advertiser an association between (i)
one or more first criteria comprising demographic
and/or psychographic criteria and a first ad and (ii)
a first bid, the bid being the highest amount the
advertiser is willing to, but may not have to, pay,
and the first ad;
receiving at the computer system over the network
from a second advertiser an association between (i)
one
or
more
second
criteria comprising
demographic and/or psychographic criteria and a
second ad and (ii) a second bid, the bid being the
highest amount the advertiser is willing, but may
not have, to pay, and the second ad;
determining by the computer system that a first
match exists between the first criteria and the user
information;
determining by the computer system that a second
match exists between the second criteria and the
user information;
in the event of both a first match and a second
match, determining by the computer system
placement of at least one of the first and
second ads based on one or more ad placement
factors comprising the first and second bids;
transmitting by the computer system at least one of
the first and second ads over the network to the
user. S.A. 25—26.
App. 21

DISCUSSION
I. Standard of Review and Legal Standard
“We review the PTAB’s factual findings for
substantial evidence and its legal conclusions de novo.”
Bedline Detection, LLC v. Star Envirotech, Inc., 811 F.3d
435, 449 (Fed. Cir. 2015) (citation omitted). “Substantial
evidence is something less than the weight of the evidence
but more than a mere scintilla of evidence[,]” meaning
that “tilt is such relevant evidence as a reasonable mind
might accept as adequate to support a conclusion.” In re
NuVasive, Inc., 842 F.3d 1376, 1379-80 (Fed. Cir. 2016)
(internal quotation marks and citations omitted). “If two
inconsistent conclusions may reasonably be drawn from
the evidence in record, the PTAB’s decision to favor one
conclusion over the other is the epitome of a decision that
must be sustained upon review for substantial evidence.”
Elbit Sys. of Am., LLC v. Thales Visionix, Inc., 881 F.3d
1354, 1356 (Fed. Cir. 2018) (internal quotation marks,
alterations, and citation omitted).
“We review issues unique to patent law, including
patent eligibility under ... § 101, consistent with our
circuit’s precedent.” Smart Sys. Innovations, LLC v. Chi.
Transit Auth., 873 F.3d 1364, 1367 (Fed. Cir. 2017)
(internal quotation marks and citation omitted).
“Whoever invents or discovers any new and useful
process, machine, manufacture, or composition of matter,
or any new and useful improvement thereof, may obtain a
patent therefor, subject to the conditions and
requirements of’ Title 35 of the United States Code. 35
U.S.C. § 101. “The Supreme Court, however, has long
interpreted § 101 and its statutory predecessors to
contain an implicit exception^ laws of nature, natural
phenomena, and abstract ideas’ are not patentable.”

App. 22

Content Extraction & Transmission LLC v. Wells Fargo
Bank, Nat’l Ass’n, 776 F.3d 1343, 1346 (Fed. Cir. 2014)
(quoting Alice Corp. Pty. Ltd. v. CLS Bank Inti, 573 U.S.
208, 216 (2014)).
The Supreme Court’s decision in Alice provides the
framework through which we assess patent eligibility
under § 101. See 573 U.S. at 215—17. A patent claim is
patent ineligible when “ (l) it is ‘directed to’ a patentineligible concept, i.e., a law of nature, natural
phenomenon, or abstract idea, and (2), if so, the particular
elements of the claim, considered ‘both individually and
“as an ordered combination,”’ do not add enough to
“‘transform the nature of the claim’ into a patent-eligible
application.’” Elec. Power Grp., LLC v. Alstom S.A., 830
F.3d 1350, 1353 (Fed. Cir. 2016) (quoting Alice, 573 U.S.
at 217) (citing Mayo Collaborative Servs. v. Prometheus
Labs., Inc., 566 U.S. 66, 77-80 (2012)).
II. The Proposed Claims Are Directed to an Abstract Idea
Under Alice Step One
The PTAB determined that independent claim 2 is
“directed to the concepts of targeting advertisements for a
user, and using a bidding system to determine how the
advertisements will be displayed!!,]” which are both
directed to the “fundamental economic practices long
prevalent in our system of commerce!,]” and that,
therefore, independent claim 2 “is directed to an abstract
idea!.]” Morsa, 2018 WL 6573274, at *2.
Mr. Morsa argues that “advertising is real,
tangible, and concrete” and, therefore, patent “eligibility
[is] confirmed!.]” Appellant’s Br. 44 (emphasis omitted)
(capitalization normalized).
App. 23

Additionally, Mr. Morsa asserts that the PTAB erred
because it identified more than one abstract idea and it is
only supposed to identify “one and only one single alleged
abstract idea.” Id. at 26. We disagree with Mr. Morsa.4
Independent claim 2 is directed to the abstract idea
and fundamental economic practice of organizing human
activity. For example, independent claim 2 recites a
“process” that “transmit [s]” a “request for demographic
and/or psychographic user information” to the user and
then “sav[es]” the “user information” on the system to
match the user to a specific advertiser. S.A. 25. We have
explained that claims related to “customizing information
based on (l) information known about the user and (2)
[specific] data” are directed to abstract ideas. Intellectual
Ventures I LLC v. Capital One Bank (USA), 792 F.3d
1363, 1369 (Fed. Cir. 2015); see Bridge & Post, Inc. v.
Verizon Commc’ns, Inc., 778 F. App’x 882, 888 (Fed. Cir.
2019) (similar) (citing Internet Patents Corp. v. Active
Network, Inc., 790 F.3d 1343, 1346 (Fed. Cir. 2015)); see
also Intellectual Ventures, 792 F.3d at 1370 (“An
advertisement taking into account the time of day and
tailoring the information presented to the user based on
that information is another ‘fundamental. . . practice long
prevalent in our system’” (quoting Alice, 573 U.S. at 219)).
Here, the claim recites both targeted advertising and
bidding to display the advertising, which are both
abstract ideas relating to customizing information based
on the user and matching them to the advertiser.
4 Mr. Morsa asserts that because “[t]he Supreme
Court and the Federal Circuit both use preemption as the
mechanism to evaluate whether a claim is eligible or
not[,]” his claims are not directed to an abstract idea
because they do not preempt all advertising.
App. 24

See RecongiCorp, LLC v. Nintendo Co., 855 F.3d 1322,
1327 (Fed. Cir. 2017) (“Adding one abstract idea ... to
another abstract idea . . . does not render the claim nonabstract.”). Because independent claim 2 of the ’192
application relates to “the field of advertising” and
“matching advertisers with entities via computer
networks,” it is directed to an abstract idea.
III. The Proposed Claims Do Not Recite an “Inventive
Concept” Under Alice Step Two
The PTAB found that there was no “inventive
concept” because independent claim 2 “fail[s] to transform
the abstract nature of the claim into patent eligible
subject matterU” Morsa, 2018 WL 6573274, at *4. The
PTAB explained that the specification “describes using
generic computer components such as network PC’s,
minicomputers, mainframe computers, cell phones,
servers, match, engines, local area networks [,] and wide
area networks in a conventional manner for the known
functions.” Id. at *3. Mr. Morsa argues that “[i]t is
impossible for a claim that is novel and non-obvious under
35 U.S.C. [§] 102 and 35 U.S.C. [§] 103 to lack an
inventive concept under [s]tep [two] of’ Alice. Appellant’s
Br. 51 (emphasis omitted). We disagree with this
generalization, for abstractness, novelty, and non­
obviousness are separate legal and factual concepts.
Appellant’s Br. 43. During the PTAB proceedings, the
PTAB addressed this argument and found it
unpersuasive. See Morsa, 2018 WL 6573274, at *3. “While
preemption may signal patent ineligible subject matter,
the absence of complete preemption does not demonstrate
patent eligibility.” Ariosa Diagnostics, Inc. v. Sequenom,
Inc., 788 F.3d 1371, 1379 (Fed. Cir. 2015). Therefore, Mr.
Morsa’s argument is without merit.
App. 25

Because independent claim 2 is directed to an
abstract idea, the second step of the § 101 analysis
requires us to determine whether the ’192 application’s
claim limitations—when viewed individually and as an
ordered combination—contain “an inventive concept
sufficient to transform the claimed abstract idea into a
patent-eligible application.” Alice, 573 U.S. at 217
(internal quotation marks and citation omitted).
A claim contains an inventive concept if it
“include [s] additional features” that are more than “wellunderstood, routine, conventional activities [.]” Id. at 221,
225 (internal quotation marks, alterations, and citations
omitted).
The limitations of independent claim 2 do not recite
an inventive concept to transform their abstract idea into
patentable subject matter. When claims, such as
independent claim 2, are “directed to an abstract idea”
and
“merely
requirte]
generic
computer
implementation[,]” they “doD not move into [§] 101
eligibility territoryU” buySAFE, Inc. v. Google, Inc., 765
F.3d 1350, 1354 (Fed. Cir. 2014) (internal quotation
marks and citation omitted). Although Mr. Morsa alleges
that the Proposed Claims are “directed to improving an
existing technological process in the technical field of
advertising over the Internet/computer networks [,]”
Appellant’s Br. 51 (emphasis omitted), we have
recognized that similar claims directed to advertising do
not “transform□ the abstract idea into a patent-eligible
invention[,]” BASCOM Glob. Internet Servs., Inc. v.
AT&T Mobility LLC, 827 F.3d 1341, 1349 (Fed. Cir. 2016);
see id. at 1348 (explaining that claims “directed to
filtering content on the Internet” are abstract); see also
Intellectual Ventures, 792 F.3d at 1370
App. 26

C‘[T]he fact that the web site returns the pre-designed ad
more quickly than a newspaper could send the user a
location-specific advertisement insert does not confer
patent eligibility[.]”). Here, the claim language recites
targeted advertising and bidding for displaying
advertisements implemented using generic computer
components such as “network PC’s,” “cell phones,” and
“local area networksU” Morsa, 2018 WL 6573274, at *3;
see In re Smith, 815 F.3d 816, 819 (Fed. Cir. 2016)
(explaining that when a claim does not add a practical
application or a specific limitation beyond the judicial
exception that is not “conventional” in the field, the claims
are ineligible for patentability).
Additionally, the functions performed by the
computer system at each step of the process, such as
“saving by the computer system the user information” and
“receiving at the computer system over the network,” does
nothing more than instruct the user on how to implement
the abstract idea using generic computer components.
S.A. 25. See generally S.A. 25—26 (Independent Claim 2).
As such, when viewing the limitations of independent
claim 2 individually and as an ordered combination, they
do not transform the abstract idea into an inventive
concept.
Moreover, Mr. Morsa must do more than simply
restate the claim limitations and assert that the claims
are directed to a technological improvement, such as
“improving an existing technological process in the
technical field of advertising over the Internet/computer
networks[,]” Appellant’s Br. 51 (emphasis omitted),
without an explanation of the nature of that
improvement, see e.g., S.A. 25-26 (providing independent
claim 2’s determining steps).
App. 27

Mr. Morsa does not provide technological details
concerning how the advertisement features are
implemented to transform an abstract idea into an
inventive concept. Here, Mr. Morsa simply states that his
claims are not abstract because they were not rejected for
anticipation or obviousness during prosecution and “for
th[at] reason alone [they are] eligible.” Appellant’s Br. 51.
Novelty of an invention, however, “does not avoid the
problem of abstractness.” Affinity Labs of Texas, LLC v.
DirecTV, LLC, 838 F.3d 1253, 1263 (Fed. Cir. 2016); see
Diamond v. Diehr, 450 U.S. 175, 188-89 (1981) (“The
‘novelty’ of any element or steps in a process, or even of
the process itself, is of no relevance in determining
whether the subject matter of a claim falls within the §
101 categories of possibly patentable subject matter.”); see
also Synopsys, Inc. v. Mentor Graphics Corp., 839 F.3d
1138, 1151 (Fed. Cir. 2016) (providing that, even if we
accept that a claim recites a method different from prior
art, “a claim for a new abstract idea is still an abstract
idea” (emphasis omitted)). Therefore, the claims of the
’192 application are patent-ineligible at Alice step two.
Accordingly, the PTAB did not err in holding the Proposed
Claims patent-ineligible under § 101.
CONCLUSION
We have considered Mr. Morsa’s remaining arguments
and find them unpersuasive. Accordingly, the Decision on
Appeal of the U.S. Patent and Trademark Office is
AFFIRMED

App. 28

APPENDIX C
NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
IN re: STEVE MORSA,
Appellant
2019-1757

Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. 13/694,192.

ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC

Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellant Steve Morsa filed a combined petition for panel
rehearing and rehearing en banc. The petition was
referred to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was referred
to the circuit judges who are in regular active service.

App. 29

F

Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on June 18, 2020.
June 11, 2020

FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 30

